Case 4:18-cv-00816-A Document 16 Filed 11/06/19

Pag^HQft,l'iEfe^^^T0FTEXAS
E

MOV " 6 2019
IN THE UNITED STATES DISTRICT CCjURT
FOR THE NORTHERN DISTRICT OF te^as I
FORT WORTH DIVISION :
CLEFXU^DlStRi CT COURT
RICHARD DEMON DONALDSON,
Applicant,
v.
LORIE DAVIS, Director,
Texas Department of Criminal
Justice, Correctional
Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§
§
§

By

Ooputy

No. 4:18-CV-816-A

MEMORANDUM OPINION
and
ORDER
Before the court is a petition for a writ of habeas corpus
pursuant fo 28 U.S.C. § 2254 filed by applicant, Richard Demon
Donaldson, a state prisoner, against Lorie Davis, director of the
Texas Department of Criminal Justice t Correctional Institutions
Division (TDCJ), respondent. After having considered the
pleadings and relief sought by applicant, the court has concluded
that the petition should be denied.
I. FACTUAL AND PROCEDURAL HISTORY
A jury in Tarrant County, Texas, Case No. 1293976D, found
applicant guilty of continuous sexual assault of Ann,1 a child
under the age of 1.4, and assessed his punishment at 25 years'
confinement.

(Clerk's R.

128.) His conviction was affirmed on

[
The state appellate court used this pseudonym to protect the_i.den.ti.t.y_
of the child victim, (Mem. Op. 2 n.2.) This court also uses the pseudonym in
referring to the child victim.

APPENDIX -AA
19-11281.198

Case 4:18-cv-00816-A Document 16 Filed 11/06/19

Page 2 of 8 PagelD 108

appeal and the Texas Court of.Criminal Appeals refused.his
petition for discretionary review.

(Docket Sheet 2.) Applicant

also sought postconviction state habeas-corpus relief, to no
avail.

(SHR 2-18.2) This federal habeas-corpus petition

challenging his conviction followed.
II. ISSUES
In one ground for relief, applicant asserts that his trial
counsel was ineffective by failing to object to the trial court's
response to a jury note during deliberation in the guilt/
innocence phase of trial.

(Pet. 6. )

Ill. RULE 5 STATEMENT
Respondent believes that applicant has exhausted his state
court remedies as to the claim raised and that the application is
neither barred by limitations nor the successive-petition bar.
(Resp't's Answer 3.)
IV. STANDARD OF REVIEW
A § 2254 habeas application is governed'by the heightened
standard of review provided for by the Anti-Terrorism and
Effective Death Penalty Act (AEDPA). 28 U.S.C. § 2254. Under the
a writ of habeas corpus should be granted only if a state

2"SHR" refers to the court record of applicant's state habeas
proceeding in WR-88,290-02.
-- —
-

2

19-11281.109

Case 4:18-cv-00816-A Document 16 Filed 11/06/19

Page 3 of 8 PagelD 109

determined by the United States Supreme Court or that is based on
an unreasonable determination of the facts in light of the record
before the state court. 28 U.S.C. § 2254(d)(1)-(2); Harrington v.
Richter,. 562 U.S.

86, 100-01 (2011).

The statute also requires that federal courts give great
deference to a state court's factual findings. Hill v. Johnson,
210 F.3d 481, 485 (5th Cir. 2000). Section 2254(e)(1) provides
that a determination of a factual issue made by a state court
shall be presumed to be correct. An applicant has the burden of
rebutting the presumption of correctness by clear and convincing
evidence. 28 U.S.C. § 2254(e)(1); Miller-El v. Cockrell, 537 U.S.
322, 340 (2003); Williams v. Taylor, 529 U.S. 362, 399 (2000).
Additionally, where, as here, the Texas Court of Criminal
Appeals, the state s highest criminal court, denies relief on a
state habeas-corpus application without written order, typically
it is an adjudication on the merits, which is likewise entitled
to this presumption. Richter, 562 U.S. at 100; Ex parte Torres,
943 S.W.2d 469, 472 (Tex. Crim. App. 1997). In such a situation,
a federal court "should 'look through' the unexplained decision
to the last related state—court decision providing

particular

reasons, both legal and factual, "presume that the unexplained
decision adopted.the same reasoning," and give appropriate
deference to that decision. Wilson v. Sellers, 138 S. Ct. 1188,
1191-92 (2018).
3

19-11281.110

Case 4:18-cv-00816-A Document 16 Filed 11/06/19

Page 4 of 8 PagelD 110

v, DISCUSSION
A criminal defendant has a constitutional right to the
effective assistance of counsel at trial. U.S. Const, amend. VI,
XIV; Strickland v. Washington, 466 U.S. 668, 688 (1984). To
establish ineffective assistance of counsel, an applicant must
show (1) that counsel's performance fell below an objective
standard of reasonableness, and (2) that but for counsel's
deficient performance the result of the proceeding would have
been different. Strickland, 466 U.S. at 688. In applying this
test, a court must indulge a strong presumption that counsel's
conduct fell within the wide range of reasonable professional
assistance. Id. at 668, 688-89. Judicial scrutiny of counsel's
performance must be highly deferential and every effort must be
made to eliminate the distorting effects of hindsight. Id. at
689.
Ineffeetive-assistance-of-counsel claims are considered
mixed questions of law and fact and, therefore, are analyzed
under the "unreasonable application" standard of § 2254(d)(1).
See Gregory v.

Thaler, 601 F.3d 347,.351 (5th Cir. 2010). Where,

as here, the state courts adjudicated the ineffective-assistance
claims on the merits, this court must review applicant's claims
under the "doubly deferential" standards of both Strickland and §
2254(d). Cullen v. Pinholster, 563 U.S. 170, 190 (2011). In such
cases, the "pivotal question" for this court is not "whether

4

19-11281.111

Case 4:18-cv-00816-A Document 16 Filed 11/06/19

Page 5 of 8 PagelD 111

defense counsel/ s performance fell below Strickland's standard";
it is "whether the state court's application of the Strickland
standard was unreasonable." Richter, 562 U.S. at 101, 105.
Applicant claims that his trial counsel were ineffective by
failing to object to the trial court's response to jury note
number one requesting Ann's trial testimony and her "forensic
video interview" and, relevant to this case, asking "[d]oes
[Ann's mother] have the ability to stop the case before trial for
any reason during the 4 years?" (Clerk's R. 120.) The court's
response was "Your question 'Does [Ann's mother] have the ability
to stop the case before trial for any reason during the four
years' is not in evidence before you." (Id. at 119.) In the state
habeas proceedings, lead counsel Mark D. Scott responded to
applicant's allegation by affidavit as follows;
This question itself was answered properly by the
court and accordingly an objection was not proper. This
was not something in evidence to the jury and objecting
to such a response would not change the court's answer.
What the question does indicate is a possibility of the
1 ury considering alternative theories of the events.
Per another jury request made at the same time, the
court sent in the forensic interview video of the
accuser . When combined with the request involving the
accuser's mother, this turn of events seemed to
indicate that the jury was strongly considering the
defense we used.
(SHR 144 (emphasis in original).3)
Based on counsel's affidavit, the documentary record, and

3Co-counsel, Adam C. Burney, answered identically in his affidavit.
at 146-47.)

(id.

5

19-11281.112

Case 4:18-cv-00816-A Document 16 Filed 11/06/19

Page 6 of 8 PagelD 112

his own recollection of the trial proceedings, the state habeas
judge adopted the following proposed findings of fact on the
issue:
70.

Mr. Scott agreed with the trial court to not
answer the substance of the jury note regarding
whether [Ann's mother] could have prevented this
case from going to trial because that was not in
evidence before them.

71.

Mr. Scott did not object to the trial court's'
answer to the jury note because he concluded it
was proper.

72 .

Mr. Scott's decision to not object to the trial
court's answer to the jury note was' the result of
reasonable trial strategy.

(SHR 168 (record citations omitted).)
Based on those findings, the state court concluded that
applicant failed to prove either prong of the Strickland
standard.

(Id. at 173-74.) Applicant has not presented clear and

convincing evidence to rebut the presumptive correctness of the
state court's factual findings. Thus, deferring to those
findings, the state court's application of Strickland is not
objectively unreasonable.
Applicant asserts that the trial court's response confused
the jury and constituted an "opinionated supplemental
instruction" to the jury, which somehow conveyed the court's
opinion of the case or a factual issue raised by the
evidence-i.e.v whether the victim's mother concocted the
allegations of sexual abuse out of vengeance.

(Applicant's Mem.

6

19-11281.113

Case 4:.18-cv-00816-A Document 16 Filed 11/06/19

Page 7 of 8 PagelD 113

21-23, 27-28.) He urges that it is reasonable to infer from the
jury's note that the jury believed the weight of the evidence
"preponderated" in favor of his defensive theory and that the
court's response, "delivered to the jury with the force of law
and dually with no law to guide it,"... "undoubtedly had a
pervasive effect on how the jury now viewed the evidence from
it's own previous drawn inferenced [sic] conclusion." (Id.
(emphasis in original).) However, the information requested by
the jury was not in evidence, and, contrar^applicant' s
assertion, the trial court's response was non-substantive and
neutral. Counsel is not required to make frivolous objections.
See Johnson v. Cockrell, 306 F.3d 249, 255 (5th Cir. 2002).
Furthermore, as noted by respondent, the jury could have still
found that the victim's mother fabricated the allegations based
on the evidence at trial, namely, applicant's testimony.
(Resp't's Answer 12; Reporter's R., vol. 4, 148-61, 173, 176-77.)
Thus, the response that the issue was "not in evidence" did not
have the effect of foreclosing applicant's only viable defense.
For the reasons discussed herein,
The court ORDERS that the petition of applicant for a writ
of habeas corpus pursuant to 28 U.S.C. § 2254 be, and is hereby,
denied. The court further ORDERS that a certificate of

7

19-11281.114

Case 4:18-cv-00816-A Document 16 Filed 11/06/19

Page 8 of 8 PagelD 114

)

appealability be, and is hereby, denied.
SIGNED November

, 2019.

v

UNITED STATES DISTRICT JUDGE

8

19-11281.115

Case: 19-11281

Document: 00515666906

Page: 2

Date Filed: 12/09/2020

No. 19-11281

for judicial notice is unnecessary, see United States v. Schmitt, 748 F.2d 249,
255 (5th Cir. 1984), it is DENIED.
To obtain a CO A, an applicant must make a substantial showing of
the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2). This entails
“demonstrating that jurists of reason could disagree with the district court’s
resolution of his constitutional claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed further.”
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). Donaldson has not made the
required showing. Accordingly, his CO A motion is DENIED.

Don R. Willett
United States Circuit Judge

2

Case: 19-11281

Document: 00515697529

Page: 1

Date Filed: 01/07/2021

Hmteti States! Court of Appeals
for tlje jftftlj Circuit
No. 19-11281

Richard Demon Donaldson,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director•, Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:18-CV-816

Before Willett, Ho, and Duncan, Circuit Judges.
Per Curiam:
A member of this panel previously DENIED Appellant’s motion for
a certificate of appealability. The panel has considered Appellant’s motion
for reconsideration.
IT IS ORDERED that the motion is DENIED.

APPENDIX

/
/

C

